September 15, 2010

ROSS PHILO
CHIEF INFORMATION OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT: Audit Report – External Public Key Infrastructure Services –
         Fiscal Year 2010 (Report Number IS-AR-10-013)

This report presents the results of our audit of the U.S. Postal Service’s external Public
Key Infrastructure (PKI) services (Project Number 10RG014IT000). The objective was
to determine whether the Postal Service effectively managed its external PKI services to
comply with established guidance. We performed this audit at the request of Postal
Service management to ensure that external PKI services continue to operate at a level
to remain cross-certified with the U.S. Government’s Federal Bridge Certification
Authority. See Appendix A for additional information about this audit.

PKI is the combination of software, encryption technologies, processes, and services
that enables an organization to secure its communications and business transactions.
PKI relies on the exchange of digital certificates between authenticated users and
trusted resources. The Certificate Policy is a written document that defines how an
organization issues and uses certificates and the measures the organization uses to
validate the subjects of the certificates.

Conclusion

The Postal Service generally managed its external PKI services in compliance with
established guidance. However, we identified inconsistencies between the Postal
Service’s Certificate Policy, Certification Practice Statements, and operations in the
external PKI environment.

Postal Service PKI Policies and Environment

There were       instances where the operations of the Postal Service’s external
environment did not conform to the requirements of the Certification Practice
Statements. In addition, there were 12 instances of inconsistencies between the
Certificate Policy and Certification Practice Statements. Postal Service personnel did
not perform periodic reviews of its external PKI operations and policies to ensure
conformance. Inconsistencies may cause misinterpretation of PKI policies and delays in
maintaining cross-certification with the Federal Bridge Certification Authority. For
example, the roles and responsibilities memorandum did not contain the PKI auditor's
External Public Key Infrastructure                                             IS-AR-10-013
 Services – Fiscal Year 2010


role as listed in the Certificate Policy and Root, Intermediate, and Subordinate
Certification Practice Statements. See Appendix B for our detailed analysis of this topic.

When brought to their attention, management took action to correct these identified
issues. While we acknowledge management’s timely action to resolve these issues, we
are making a recommendation that should prevent similar issues in the future.

We recommend the chief information officer and executive vice president direct the
manager, Corporate Information Security, to:

1. Develop procedures to ensure reviews of applicable policies and processes are
   performed following changes to the Postal Service’s external Public Key
   Infrastructure environment.

Management’s Comments

Management agreed with the recommendation. Management will review the Federal
PKI Policy Authority meeting minutes to determine if there are any policy changes and,
if so, will update the Certificate Policy and Certification Practice Statements documents
as required. Additionally, they will conduct a quarterly review of implemented changes
to ensure consistency between the Certificate Policy, Certification Practice Statements,
and operations of the external PKI environment. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendation and the corrective action should resolve
the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at 703-248-2100.
    E-Signed by Darrell E. Benjamin, Jr
    VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Deborah J. Judy
    Charles L. McGann, Jr.
    Corporate Audit and Response Management




                                            2
External Public Key Infrastructure                                                                           IS-AR-10-013
 Services – Fiscal Year 2010



                                  APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

PKI is the combination of software, encryption technologies, processes, and services
that enables an organization to secure its communications and business transactions.
PKI relies on the exchange of digital certificates between authenticated users and
trusted resources. A Certification Authority is an essential component of the Microsoft
PKI solution. In a Windows Server 2003 network, a Certification Authority is a Windows
Server 2003 computer with Certificate Services installed. A Certification Authority issues
certificates to users, computers, and services and manages those certificates.

To support PKI-enabled applications, an organization must design and implement the
Certification Authority hierarchy. Common roles in a Certification Authority hierarchy
include a root, policy, and an issuing Certification Authority. The Postal Service’s
external PKI1 consists of a root, an intermediate, and two subordinate Certification
Authorities.

The Certificate Policy is a written document that defines how an organization issues and
uses certificates and the measures the organization uses to validate the subjects of the
certificates. The Certificate Policy also includes the legal requirements an organization
must follow when using certificates that its PKI issues. The Certification Practice
Statements is a statement of practices a Certification Authority uses to issue, revoke,
and manage certificates. Different practice statements may exist on each Certification
Authority in the hierarchy based on the type of certificates the Certification Authority
issues and to whom the Certification Authority issues them.

Homeland Security Presidential Directive 12 established a federal policy2 to create and
use a government-wide secure and reliable form of identification for federal employees
and contractors. Currently,
                                                                       However, the
Federal Information Processing Standard Publication 201 requires every Homeland
Security Presidential Directive 12 credential the government issues to contain an
external digital certificate. As a result, the Postal Service created a Certification
Authority server room
                            that houses the external PKI environment. This environment
could authenticate and verify government-wide identification badges issued to Postal
Service employees and contractors.

The Federal Public Key Infrastructure Policy Authority is an interagency body
established under the Chief Information Officers Council to enforce digital certificate

1
  The Postal Service refers to its policy Certification Authority as an intermediate Certification Authority and refers to
its issuing Certification Authority as a subordinate Certification Authority.
2
  Policy for a Common Identification Standard for Federal Employees and Contractors, dated August 27, 2004.




                                                             3
External Public Key Infrastructure                                             IS-AR-10-013
 Services – Fiscal Year 2010


standards for trusted identity authentication across federal agencies and among federal
agencies and outside bodies. The Federal Bridge Certification Authority is an
information system that facilitates an entity accepting certificates issued by another
entity for a transaction.

In support of Homeland Security Presidential Directive 12, the Federal Public Key
Infrastructure Policy Authority approved the Postal Service’s external PKI for cross-
certification in April 2008 at a        hardware level. The Federal Public Key
Infrastructure Policy Authority requires a full and complete compliance audit of all
mandatory criteria to serve as the baseline for the triennial audits. We conducted this
audit to ensure the Postal Service’s external PKI services continue to operate at a level
to remain cross-certified with the Federal Bridge Certification Authority.

OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to determine whether the Postal Service effectively
managed its external PKI services in compliance with established guidance. We
conducted our work                                                    To accomplish the
objective, we evaluated whether:

       The Postal Service’s Root, Intermediate, and Subordinate Certification Practice
        Statements conformed to the Postal Service’s Certificate Policy.

       PKI operations complied with requirements in the Root, Intermediate, and
        Subordinate Certification Practice Statements.

We performed a compliance audit of all mandatory criteria as stated in the FPKIPA
Triennial Compliance Audit Requirements. Mandatory criteria includes a review of all
procedures and controls; previous compliance audit findings for associated changes
and corrective actions; and all changes to policies, procedures, personnel, and system
and technical aspects since the previous compliance audit.

We used the following Postal Service policy documents as criteria to evaluate whether
PKI policies conformed to PKI policies and whether PKI operations complied with PKI
policy:

       United States Postal Service Public Key Infrastructure (PKI) X.509 Certificate
        Policy (CP), Version 1.68, dated March 8, 2010, last updated August 12, 2010.

       United States Postal Service Root Certification Authority (CA) Certification
        Practice Statement (CPS), Version 1.20, dated March 8, 2010, last updated
        August 12, 2010.




                                             4
External Public Key Infrastructure                                              IS-AR-10-013
 Services – Fiscal Year 2010


       United States Postal Service Intermediate Certification Authority (CA) Certification
        Practice Statement (CPS), Version 1.20, dated March 8, 2010, last updated
        August 12, 2010.

       United States Postal Service Subordinate Certification Authority (CA) Certification
        Practice Statement (CPS), Version 1.20, dated March 8, 2010, last updated
        August 12, 2010.

         Handbook        AS-805, Information Security, dated November 2009.

To validate conformance, we interviewed staff to discuss policies and compared
statements in the Certification Practice Statements to corresponding statements in the
Certificate Policy to determine whether the statements were the same or different.

To validate operations, we observed operations and interviewed PKI personnel to
determine if actual practices and procedures were as stated in the Certification Practice
Statements.

To validate that management had taken corrective action on the FY 2009 PKI
compliance audit recommendation, we verified the status during fieldwork and
determined that management implemented the recommendation.

We conducted this performance audit from February through September 2010 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management officials throughout the audit and on
August 30, 2010, and included their comments where appropriate.




                                               5
     External Public Key Infrastructure                                                          IS-AR-10-013
      Services – Fiscal Year 2010


     PRIOR AUDIT COVERAGE

                           Report         Final Report
   Report Title            Number             Date Report                            Results
Compliance Audit of      IS-AR-09-012       9/18/2009       The Postal Service was effectively managing its
the Postal Service’s                                        PKI services in compliance with established
External Public Key                                         guidance as stated in their Certificate Policy and
Infrastructure                                              Certification Practice Statements. However, we
Services                                                    identified and management corrected 10 instances
                                                            of non-compliance between the Postal Service’s
                                                            PKI policies and its external PKI environment.
                                                            Management agreed with our recommendation
                                                            and stated they will review and compare the
                                                            Certificate Policy and Certification PS documents
                                                            for accuracy and consistency by February 2010.
                                                            During the FY 2010 audit, we verified that
                                                            management successfully implemented the
                                                            FY 2009 recommendation.
Compliance Audit of      IS-AR-08-017       9/11/2008       The Postal Service was effectively managing its
the Postal Service’s                                        PKI services in compliance with established
External Public Key                                         guidance as stated in their Certificate Policy and
Infrastructure                                              Certification Practice Statements. However, we
Services                                                    identified     instances of non-compliance between
                                                            the Postal Service’s PKI policies and its external
                                                            PKI environment. Of these, management
                                                            corrected two and developed resolution plans for
                                                            the remaining       Management agreed with our
                                                            recommendation and stated they would establish
                                                            milestones to implement resolutions for the
                                                            remaining non-compliant issues in the external PKI
                                                            environment by December 31, 2008. During the
                                                            FY 2009 audit, we verified that nine of the 10
                                                            remaining instances of non-compliance were
                                                            completed and that management was in the
                                                            process of correcting the remaining issue. This
                                                            project is closed.
Compliance Audit of      IS-AR-08-001       10/5/2007        In general, the Postal Service’s external PKI
the Postal Service’s                                         environment complies with their Certificate Policy,
External Public Key                                          Certification Practice Statements, and any
Infrastructure                                               applicable Memorandums of Agreement.
Services                                                     However, the Postal Service could improve their
                                                             external PKI environment by mitigating the
                                                             remaining instances of its non-compliance with
                                                             Postal Service PKI policies and procedures in the
                                                             external PKI environment. Management agreed
                                                             with our recommendation and stated they would
                                                             develop a risk mitigation plan by October 31,
                                                             2007. We verified that management resolved the
                                                             remaining FY 2007 instances of non-compliance
                                                             during the FY 2008 audit. This project is closed.




                                                        6
      External Public Key Infrastructure                                                      IS-AR-10-013
       Services – Fiscal Year 2010



                            Report         Final Report
   Report Title             Number             Date Report                         Results
Information for the       IS-WP-07-001 10/2/200    6       The Postal Service’s PKI operations, as of
Federal Bridge                                             September 1, 2006, conformed to the Certification
Certification Authority                                    Practice Statements documents. This project is
                                                           closed.
Certificate Authority     IS-AR-06-015 9/1/2006            We performed a follow-up audit and reviewed
Public Key                                                 items identified in a March 2006 audit performed
Infrastructure                                             by Klynveld Peat Marwick Goerdeler LLP. The
Compliance                                                 Postal Service had corrected most of the issues
                                                           identified in the report. However, management
                                                           could make improvements by establishing and
                                                           assigning the HSPD-12 Registration Authorities
                                                           and Subscribers and completing the CA-PKI back-
                                                           up environment. Management agreed with the
                                                           recommendation and stated that the completion
                                                           date for the PKI back-up site was September 1,
                                                           2006. This project is closed.




                                                       7
External Public Key Infrastructure                                              IS-AR-10-013
 Services – Fiscal Year 2010


                              APPENDIX B: DETAILED ANALYSIS

Postal Service PKI Policies and PKI Environment

There were    instances where the operations of the Postal Service’s external
environment did not conform to the requirements of the Certificate Practice Statements.
For example:

       The Corporate Information Security Office roles and responsibilities
        memorandum for the Homeland Security Presidential Directive 12 project did not
        contain the PKI auditor's role listed in the Certificate Policy and Root,
        Intermediate, and Subordinate Certification Practice Statements’.

       PKI personnel
                ensuring proper documentation as stated in the Root, Intermediate, and
        Subordinate Certification Practice Statements.

       The Root and Intermediate servers
                   therefore the                                                 as
        stated in the Root and Intermediate Certification Practice Statements, was not
        valid.

       Power and air conditioning back-up power capabilities were inaccurately stated in
        the Certificate Policy and the Root, Intermediate, and Subordinate Certification
        Practice Statements.

Additionally, we found      instances of documentation inconsistencies in the Certification
Practice Statements which did not provide sufficient detail to support corresponding
Certificate Policy requirements. For example, the Subordinate Certification Practice
Statements was missing a paragraph regarding registration authorities which was
included in the Certificate Policy. Further, statements were missing in the Root and
Intermediate Certification Practice Statements concerning the Certificate Revocation
List scheduling details as included in the Certificate Policy.

Management placed limited focus on reviewing PKI policies because the Postal Service
is not actively issuing certificates in this environment. Operating the external PKI
environment in compliance with policies and consistent documentation maintains cross-
certification and improves the understanding of policies.

In Table 1, we summarized the results of our review of the Postal Service’s Certificate
Policy and Certification Practice Statements documents. All 4,261 items we reviewed
were compliant at the time we issued this report.




                                             8
External Public Key Infrastructure                                             IS-AR-10-013
 Services – Fiscal Year 2010


                                     Table 1 – Status of Compliance

             Status of Items Reviewed                  Items Reviewed   Percentage
       Compliant with environment                           4,236          99.4%
       Non-compliant items corrected                           25           0.6%
       Non-compliant items outstanding                          0           0.0%
       Total items reviewed                                 4,261         100.0%




                                                   9
External Public Key Infrastructure                           IS-AR-10-013
 Services – Fiscal Year 2010


                         APPENDIX C: MANAGEMENT’S COMMENTS




                                        10
External Public Key Infrastructure        IS-AR-10-013
 Services – Fiscal Year 2010




                                     11
External Public Key Infrastructure                                           IS-AR-10-013
 Services – Fiscal Year 2010




           APPENDIX D: COMPLIANCE LETTER TO FEDERAL PUBLIC KEY
                    INFRASTRUCTURE POLICY AUTHORITY

The auditor letter of compliance and background information required for the Federal
Public Key Infrastructure Policy Authority begins on the next page.




                                          12
September 15, 2010           R                    eport Number: IS-AR-10-013

ROSS PHILO
CHIEF INFORMATION OFFICER AND EXECUTIVE VICE PRESIDENT

SUBJECT: External Public Key Infrastructure Services

We performed an audit to determine whether the U.S. Postal Service effectively
managed its external Public Key Infrastructure (PKI) services in compliance with
established guidance. This audit was performed to ensure that the external PKI services
continue to operate at a level to remain certified with the U.S. Government’s Federal
Bridge Certification Authority.

Audit Methodology

We conducted this audit from February through September 2010 in accordance with
generally accepted government auditing standards. As recommended by the Federal
Public Key Infrastructure Policy Authority Triennial Compliance Audit Requirements, we
performed a full and complete compliance audit of all mandatory criteria. Mandatory
criteria includes a review of all procedures and controls; previous compliance audit
findings for associated changes and corrective actions; and all changes to policies,
procedures, personnel, and system and technical aspects since the previous
compliance audit.

Documents and Criteria

We used the following Postal Service policy documentation as criteria during our audit:

      United States Postal Service Public Key Infrastructure (PKI) X.509 Certificate
       Policy (CP), Version 1.68, dated March 8, 2010, last updated August 12, 2010.

      United States Postal Service Root Certification Authority (CA) Certification
       Practice Statement (CPS), Version 1.20, dated March 8, 2010, last updated
       August 12, 2010.

      United States Postal Service Intermediate Certification Authority (CA) Certification
       Practice Statement (CPS), Version 1.20, dated March 8, 2010, last updated
       August 12, 2010.
      United States Postal Service Subordinate Certification Authority (CA) Certification
       Practice Statement (CPS), Version 1.20, dated March 8, 2010, last updated
       August 12, 2010.

    Handbook     AS-805, Information Security, dated November 2009.

Evaluation of Effective Management of Postal Service External PKI Environment
in Compliance with Established Guidance

As of September 15, 2010, the Postal Service effectively managed its external PKI
environment in compliance with established guidance. We reviewed          external PKI
components documented in the criteria documented above. Although we found
instances of non-compliance, which management corrected during our audit, we
considered them insignificant to the overall external PKI environment.

The attachment to this letter contains the identities and qualifications of the U.S. Postal
Service Office of Inspector General (OIG) personnel who conducted this audit.



Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachment

cc: Deborah J. Judy
    Charles L. McGann, Jr.




                                             2
Background for Federal Public Key Infrastructure Policy Authority Auditor Letter
of Compliance

Identity of the Auditors:

      United States Postal Service
      Office of Inspector General
      1735 N. Lynn Street
      Arlington, VA 22209-2020

      Darrell E. Benjamin, Jr.
      Frances E. Cain
      Michael Blaszczak
      Maria Gomez
      David Horton
      Ursula Sundre
      Kimberly Jones
      Ruth Smolinski

Competence of the Auditors:

      Darrell Benjamin, Jr., CPA, CIA, 21 years of audit experience
      Frances E. Cain, CISA, 18 years of audit experience
      Michael Blaszczak, CISA, CIPP, 14 years of audit experience
      Maria Gomez, CISA, CIA, 11 years of audit experience
      David Horton, CISSP, CEH, 10 years of audit experience
      Ursula Sundre, CISA, 10 years of audit experience
      Kimberly Jones, 10 years of audit experience
      Ruth Smolinski, CISA, 4 years of audit experience

Experience of Auditors Auditing PKI Systems:

      The OIG has been involved in the Postal Service’s PKI effort since August 2005
      and has performed several audits of the PKI environment.

Relationship of the Auditor to the U.S. Postal Service:

      The OIG was authorized by law in 1996. The inspector general, who is
      independent of Postal Service management, is appointed by and reports directly
      to the nine Presidentially appointed governors of the Postal Service. The primary
      purpose of the OIG is to prevent, detect, and report fraud, waste and program
      abuse and promote efficiency in the operation of the Postal Service.




                                           3
